           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                 Date:    November 15, 2010
           Consolidated Financial Statements for Fiscal Years
           2010 and 2009, Department of Transportation
           Report Number: QC-2011-021

  From:    Calvin L. Scovel III                                   Reply to
                                                                  Attn. of:   JA–20
           Inspector General

    To:    The Secretary

           I respectfully submit our report on the Quality Control Review of the Department
           of Transportation’s (DOT) audited Consolidated Financial Statements for Fiscal
           Years (FY) 2010 and 2009.

           The audit of DOT’s Consolidated Financial Statements as of and for the years
           ended September 30, 2010, and September 30, 2009, was completed by Clifton
           Gunderson LLP (Clifton Gunderson), of Calverton, Maryland (see Attachment),
           under contract to the Office of Inspector General (OIG). We performed a quality
           control review of the audit work to ensure that it complied with applicable
           standards. These standards include the Chief Financial Officers Act, as amended;
           generally accepted government auditing standards prescribed by the Comptroller
           General of the United States; and Office of Management and Budget Bulletin
           07-04, “Audit Requirements for Federal Financial Statements,” as amended.

           Clifton Gunderson concluded that the consolidated financial statements present
           fairly, in all material respects, DOT's financial position as of September 30, 2010,
           and September 30, 2009, and its net costs, changes in net position, and budgetary
           resources, for the years then ended.

           We congratulate DOT for obtaining clean audit opinions with no material
           weaknesses for 3 consecutive years. Your senior leadership team, including the
           Chief Financial Officer and Modal Administrators, should be commended for its
           commitment to improving DOT financial management.
                                                                                  2


DOT substantially corrected two of the five significant deficiencies in internal
control reported in Clifton Gunderson's FY 2009 audit report, but the remaining
three significant deficiencies in internal control are again included in this year's
report. In addition, there are two new significant deficiencies in internal control
presented for FY 2010.

Clifton Gunderson FY 2010 Audit Report

Clifton Gunderson reported five significant deficiencies in internal control and
four potential instances of reportable noncompliance with laws and regulations.

Significant Deficiencies

   1. Financial Accounting, Reporting and Analysis - DOT must continue to
      reduce the use of journal entries and properly record reclassification and
      adjustment transactions in the Delphi general ledger system. Furthermore,
      DOT Operating Administrations (OAs) should follow a formalized
      systematic fund control process throughout the year to monitor fund status.

   2. Undelivered Orders - DOT needs to strengthen controls for monitoring
      inactive obligations and de-obligate an estimated $1.5 billion no longer
      needed as of September 30, 2010. These funds could potentially be made
      available for other DOT requirements.

   3. Grant Accruals - The Federal Highway Administration (FHWA) needs to
      enhance its review and analysis of grant accruals in order to more reliably
      measure the cost of grants programs and outstanding liabilities.

   4. Implementation of GrantSolutions Grants Management System - The
      Federal Railroad Administration (FRA) needs to improve the effectiveness
      and functionality of its grants management processes and systems in order
      to strengthen controls and safeguard obligations.

   5. Controls over Financial Systems and Applications - DOT's Enterprise
      Services Center must migrate the Department's accounting application to a
      new operation system supported by the database vendor, develop a lifecycle
      plan, and enhance communications with the Department and its OAs.
      Furthermore, DOT needs to implement effective security controls to protect
      its financial information from unauthorized access, modification, and
      disclosure throughout the year.
                                                                                 3


Noncompliance with Laws and Regulations

      Anti-Deficiency Act - DOT management needs to complete its assessment
      of four potential violations of the Anti-Deficiency Act reported at the
      Maritime Administration, the Federal Motor Carrier Safety Administration,
      and FHWA (two potential violations), and report confirmed violations as
      required by law. These OAs should also enhance their internal control
      systems for monitoring fund balances.

Clifton Gunderson made 30 recommendations to strengthen financial, accounting,
and system controls. We agree with all, and therefore, are making no additional
recommendations. DOT officials concurred with Clifton Gunderson's findings on
the significant deficiencies and potential instances of noncompliance. The
Department also committed to submitting to OIG, no later than
December 31, 2010, a detailed action plan to address the findings contained in the
audit report. In accordance with DOT Order 8000.1C, the corrective actions taken
in response to the findings are subject to follow up. Accordingly, please provide
us with quarterly progress reports on the actions taken to reduce the approximately
$1.5 billion in unneeded obligations discussed in Clifton Gunderson's
"Undelivered Orders" significant deficiency.

Our review disclosed no instances in which Clifton Gunderson did not comply, in
all material respects, with applicable auditing standards.

We appreciate the cooperation and assistance of DOT and Clifton Gunderson
representatives. If we can answer any questions, please call me at (202) 366-1959;
Lou Dixon, Principal Assistant Inspector General for Auditing and Evaluation, at
(202) 366-1427; or Earl Hedges, Acting Assistant Inspector General for Financial
and Information Technology Audits, at (410) 962-1729.

Attachment
                                         #
